           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    SOCIAL SECURITY NUMBERS
        WITH MORE THAN
           ONE OWNER

     June 2004   A-03-03-23003




  AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   June 23, 2004                                                                   Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Social Security Numbers with More Than One Owner (A-03-03-23003)



        OBJECTIVE

        Our objective was to determine how often the Social Security Administration's (SSA)
        records show that more than one individual has been provided with the same Social
        Security number (SSN).

        BACKGROUND
        One of the key elements SSA employs in administering the Social Security programs is
        the SSN. SSA assigns a unique SSN to each individual applying for a Social Security
        card. This SSN, as well as personal identification information related to the
        numberholder,1 is stored on a master file called the Numident. Protecting the integrity
        of the SSN is essential to the proper posting of reported earnings, the payment of SSA
        disability and retirement benefits, and the prevention of SSN misuse.

        In an August 2002 audit,2 we reported on two Numident records where more than one
        person appeared to share the same SSN.3 At the time, we referred these cases to SSA
        for resolution. SSA staff explained to us that such errors may occur when identifying
        information for one person is erroneously posted to the Numident record of another
        individual. For example, we were told that a replacement card could be issued to an
        individual in error from another person’s Numident record.



        1
          The Application for Social Security Card (Form SS-5) requires the applicant to provide identifying
        information such as date of birth and place of birth. Optional information can also be provided, such as
        the name and SSN of the numberholder’s mother and father.
        2
          Effectiveness of the Social Security Administration's Earnings after Death Process (A-03-01-11035)
        issued in August 2002.
        3
         A total of three instances were found in this audit, but only two were mentioned since they involved
        earnings posted to the wrong account. The third instance did not involve earnings problems.
Page 2 – The Commissioner

SCOPE AND METHODOLOGY
Our audit included procedures to ensure the reliability of the data and gain an
understanding of internal controls. We found the data to be reliable for the purposes of
our review, except as disclosed in the findings of this report. Our audit work was
focused on two sets of cases – 100 randomly selected items and 3 items we reported
on in an earlier audit. We provide a full description of our methodology and sampling
technique in Appendix B. The SSA entity reviewed was the Office of the Deputy
Commissioner for Operations. We conducted our audit from July through
November 2003 in accordance with generally accepted government auditing standards.

RESULTS OF REVIEW

Our review of 100 Numident records found 3 instances of 2 individuals sharing the
same SSN, with 1 case leading to a $49,100 overpayment of benefits. Furthermore, we
reviewed another three similar cases from an earlier audit and identified another
$223,200 in payment errors caused by two individuals sharing one SSN. All but one of
the six errors we reviewed occurred prior to 1983, when SSA modernized its
enumeration systems. SSA’s current enumeration procedures should minimize future
occurrences of individuals sharing the same SSN. However, past enumeration
problems may still lead to payment errors in the future.

INDIVIDUALS SHARING THE SAME SOCIAL SECURITY NUMBER

In our review of 100 randomly selected records, we found 3 records where 2 individuals
were sharing the same SSN. Our population consisted of Numident records having
more than one date of birth (DOB) and place of birth. In all three cases, it appears that
the second individual was added to the Numident at least 26 years after the SSN was
originally issued. Based on these results, we estimate that the Numident files may
contain approximately 820 records where 2 individuals are sharing the same SSN
(see Appendix D for our sampling methodology and results). Furthermore, in one case
two individuals were sharing the same earnings information in their benefit calculations,
which led to an overpayment of $49,100.4

The three records with two individuals indicate that an error occurred when the field
office (FO) attempted to process a replacement card. Two of these individuals already
had their own SSN and appeared to be requesting replacement cards. In the third case,
the individual was requesting an original SSN, but it appears that SSA issued a
replacement card on another individual’s record. Each of these replacement card errors
occurred decades after the original SSN was issued. For instance, in one case the



4
 We are not estimating the financial impact since we found only one case with an overpayment in our
sample.
Page 3 – The Commissioner

original Social Security card was issued to the owner5 in 19366 and the second name
was added to the Numident in 1992 when a replacement card was issued. In one
instance (see case #1 in Table 1), while both individuals on the record were retired, the
second person’s retirement benefits were calculated using both his earnings as well as
the earnings of the SSN owner, leading to an increase in the second person’s benefit
payment. In all, the same 30 years of earnings were used to calculate the Old Age,
Survivors and Disability Insurance (OASDI) benefits for two individuals. As of October
2003, the overpayment was approximately $49,100 and continues to increase. This
case and the others noted above were referred to SSA for resolution. SSA staff
corrected the Numident records of all individuals in the three cases and the earnings
record of the affected individual, and is still resolving the overpayment issue.7

                                  Table 1: Results of Sample Cases
                                                        Individual #1                     Individual #2
                  Date SSA         Date of
               Issued Original    Erroneous
     Case      Social Security    Numident                       Overpayment/                      Overpayment/
                    Card           Posting      Date of Birth   (Underpayment)    Date of Birth   (Underpayment)
    Case 1     05/16/1938        10/21/1982     03/04/1905            0           7/26/1919        $49,100 (1)
    Case 2     12/06/1936        10/08/1992     04/20/1912            0           5/07/1939            0
    Case 3     03/05/1951        06/22/1977     05/05/1921            0           5/15/1926            0
Note: (1) Approximate amounts through October 2003.

Reason for Other Discrepancies in Sample Items

The remaining 97 cases showed discrepancies in the places of birth as well as DOBs,
though we believe only 1 person was shown on each Numident record. The
discrepancies in the place of birth related to different or misspelled cities and States.
For example, in one case a Numident showed the city of birth as “NYC” and “New York
City” on the same record. In another case, two different cities appeared on the
Numident – Fellowsville, West Virginia and Preston, West Virginia. These two towns
are 12 miles apart. While we could not explain this discrepancy, the rest of the
information on the Numident indicates only one person on this record.


5
    We will use the term “owner” for the individual who originally received the SSN.
6
  The SSN was originally issued in 1936 but the first date on the Numident record is December 16, 1974.
We located the issuance date on the SS-5 application. The Numident does not always contain
information going back to the first issued Social Security card.
7
  Nevertheless, the rules of Administrative Finality may apply to the cases where the individuals were
overpaid. With regard to OASDI benefits, this means that SSA’s ability to correct the benefit payments, or
to collect the overpayments, may be affected by specific time limitations on reopening of determinations.
Under the rules of Administrative Finality, an initial determination under OASDI (favorable to the claimant)
generally cannot be reopened after 4 years unless fraud or "similar fault" is established. See SSA's
Program Operations Manual System (POMS) section GN 04030.050 B and GN 04030.020. For
Supplemental Security Income benefits, administrative finality rules are less rigid, and a case may be
reopened when SSA receives and records additional information or evidence which is cause for review of
the case. See POMS SI 04070.001 C.6.
Page 4 – The Commissioner

Most of the DOB discrepancies were minor, but we found 34 instances where the
difference was 2 or more years. In one instance, the individual’s Numident showed
multiple DOBs, the earliest being October 2, 1905 and the latest being
October 22, 1921.8 It is not clear why this discrepancy occurred.9 The last replacement
card issued on this particular Numident was in 1986.

FOLLOW-UP OF PREVIOUS AUDIT

During our previous audit,10 we found three cases where the SSN was shared by
two different individuals, leading to $223,200 in incorrect payments. Of the three cases
cited in our prior audit, we found that one case resulted in the owner’s children being
overpaid about $49,800 and the second individual and his family being underpaid
approximately $110,000 in OASDI benefits and overpaid $63,400 in Supplemental
Security Income (SSI) benefits.11

In one instance (see case 3P in Table 2), three individuals were impacted by an
erroneous Numident posting. While issuing a replacement card in 1982, SSA added a
second person to an existing Numident record. Both individuals continued to work
under this SSN and all earnings from that point forward were posted to the earnings
record for this SSN. When the owner of the SSN died in 1987, his two children
collected benefits under this record until they reached the age of 18. However, these
benefits were based on both the SSN owner’s earnings as well as the second person’s
earnings. As a result, the children were overpaid approximately $49,800 in OASDI
benefits.

Moreover, when the second person on the record became disabled and attempted to
collect OASDI benefits under his correct SSN, his claim was denied because he lacked
sufficient earnings. As noted previously, approximately 10 years of his earnings had
been posted to the first person’s earnings record.12 While the second individual was
denied OASDI benefits, he did qualify for SSI benefits. We estimate that SSA should
have paid this second individual, and his family, approximately $110,000 in OASDI
benefits between December 1992 and November 2003. However, this individual

8
    Other DOBs on the record included October 21, 1905; October 31, 1905; and October 31, 1906.
9
    The correct DOB appears to be October 31, 1905 based on a review of other SSA records.
10
   Effectiveness of the Social Security Administration's Earnings after Death Process (A-03-01-11035)
issued in August 2002.
11
  While these problems were not the focus of this earlier audit, we came across these cases during our
audit work. Unlike the first three cases we selected randomly, we are not projecting the results of these
three findings from our earlier audit.
12
  When this individual applied for OASDI benefits, the FO failed to develop this individual’s allegations of
having used another SSN to work. The earnings records for the other SSN shows two different workers,
one of which is our individual. A transfer of this person’s earnings from the wrong record to his own
would give him insured status for OASDI benefits.
Page 5 – The Commissioner

received approximately $63,400 in SSI payments; therefore, the overall SSA
underpayment would be about $46,600.13 This individual is still receiving SSI
payments. On July 29, 2003, we referred both of these cases to SSA and they were still
being resolved as of March 2004.14

                                 Table 2: Results of Previous Audit
                                              Individual #1                        Individual #2
     Case        Date of Erroneous                     Overpayment/                        Overpayment/
                 Numident Posting     Date of Birth   (Underpayment)     Date of Birth    (Underpayment)
 Case 1P           07/15/1971         3/11/1952            0             3/02/1952             0
 Case 2P           07/07/1982         2/19/1937            0             1/28/1952             0
 Case 3P           06/30/1982         5/04/1958        $49,800 (1)       1/01/1961        ($46,600) (1,2)
Note:     (1) Approximate amounts through November 2003.
          (2) This figure represents the difference between an underpayment of $110,000 in OASDI
              benefits and an overpayment of $63,400 in SSI payments.

ENUMERATION INTERNAL CONTROLS

SSA has improved its enumeration controls in recent years, and most of the instances
of two individuals sharing one SSN happened prior to these improvements. For
example, SSA created an automated enumeration process which generated alerts when
inconsistent information is entered for a replacement card. As a result, the problems
found in this audit, as well as our earlier audit, are less likely to occur today.

Changes in Enumeration Process

SSA’s enumeration procedures have changed significantly since the first card was
issued in 1936. Originally, FOs issued SSN cards and then sent the corresponding
applications to SSA Headquarters in Baltimore, Maryland, where SSN records were
established. Since 1984, processing completed SSN applications has become almost
fully automated with the Social Security cards being issued centrally from
Baltimore, Maryland.15

SSA requires all applicants for original SSNs to submit an application and provide
acceptable documentary evidence of age, identity, and citizenship or lawful alien status.

13
     The total improper payment for this individual and his family, including OASDI and SSI, is $173,400.
14
    This issue is similar to other cases being reviewed by SSA and referred to as the Special Disability
Workload (SDW). Phase I of SDW consists of approximately 130,000 SSI recipients who are in current
pay status and may be insured for OASDI disability benefits but are not receiving those benefits. In phase
II, the total workload is expected to reach approximately 300,000 cases as SSA examines systems files
to identify other individuals who may also have been entitled to benefits under the OASDI program. See
Special Disability Workload (SDW) Early Information Feedback, SSA’s Office of Quality Assurance and
Performance Assessment, August 27, 2003.
15
  Effectiveness of Internal Controls in the Modernized Enumeration System (A-08-97-41003) issued in
September 2000.
Page 6 – The Commissioner

Furthermore, since the events of September 11, 2001, SSA has added additional
controls to the enumeration process.16 See Appendix C for a more detailed explanation
of the current enumeration process.

When processing SSN applications, FO personnel are required to review the evidence
that each applicant presents and then enter the information into SSA’s Modernized
Enumeration System (MES).17 The MES provides FO personnel with alerts when the
information being input for a replacement card does not match the personal data from
the last Numident entry.18 For example, if FO personnel entered a DOB that does not
match the last DOB entered into MES for this SSN, the system will alert them to the
difference so that they can verify the information. Had these alerts always been in
place, the alerts should have notified SSA personnel to some, if not all, of the Numident
errors we identified in the six cases noted earlier.19

Period and Nature of Enumeration Errors

A review of the six cases cited in our report indicates that a second person was added
to the Numident record between 1971 and 1992 (see Table 3). Furthermore, five of
these six additions occurred prior to 1984, when the automated enumeration process
was not in place. Only one instance occurred after 1984, where an individual received a
replacement card under his mother’s SSN and SSA’s system clearly indicated that the
replacement card was being issued on the mother’s account. Nonetheless, the FO
processed the application and added the son to the Mother’s Numident. Even
considering this error, it appears that the instances of two individuals sharing one SSN
were less likely to occur after system improvements.




16
  SSA policies and procedures for issuing SSNs and resolving SSN problems are set out in POMS
section RM 00201.00, The Social Security Number, Policy and General Procedures.
17
  The MES is the system used to process the applications for Social Security numbers, including
replacement cards.
18
  The MES provides only the last Numident entry. As a result, the FO personnel will not be alerted on
discrepancies related to records prior to the last Numident entry. See Modernized Systems Operations
Manual Section 300-C, Application Control.
19
     These six include the three from our random sample and three from our 2002 audit report.
Page 7 – The Commissioner


   Table 3: Date of Second Individual Added to Numident and Reason for Error
                    Date Original                Date Second                 Possible Reason
    Case            Card Issued                Individual Added             For Numident Error
      1              05/16/1938                   10/21/1982                   Similar SSN
      2              12/06/1936                   10/08/1992                   Similar name
      3              03/05/1951                   06/22/1977                   Similar name
     1P              05/20/1968                   07/15/1971                    Similar SSN
     2P              04/19/1951                   07/07/1982                       NA(1)
     3P              11/08/1971                   06/30/1982                    Similar SSN
Note: (1) We were unable to locate another number within SSA’s systems for this individual. A new SSN
was assigned to the second individual after we referred the case to SSA.

Our review of the six cases also indicates that the error appeared to relate to confusion
over a similar name or SSN. We found that three of the six errors (50 percent) related
to a replacement card issued to a second individual whose own SSN was different by
only one digit. Again, the new controls under the automated enumeration process
should now detect differences in the DOB and other information, thereby preventing this
from happening.

CONCLUSION AND RECOMMENDATIONS

Our review of 100 Numident records, as well as our previous work in this area, found
6 instances of 2 individuals sharing the same SSN, some of which led to improper
payments. Based on these results, we estimate that the Numident master file may
contain approximately 820 records where 2 individuals are sharing the same SSN. The
majority of the enumeration input errors we reviewed during this audit occurred prior to
improvements made to SSA’s MES. SSA’s current enumeration procedures should
minimize future occurrences of individuals sharing the same SSN. However, past
enumeration problems may still lead to payment errors in the future.

We recommend that SSA take appropriate action on the cases with improper payments
discussed in this report.

AGENCY COMMENTS

SSA agreed with our recommendation, noting that the Agency has taken action on the
cases identified and is working to resolve all earnings posting payment issues.




                                                      S
                                                      Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Enumeration Process

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                               Appendix A
Acronyms
ASVI       Alien Status Verification Index

DHS        Department of Homeland Security

DOB        Date of Birth

EOIR       Executive Office for Immigration Review

FO         Field Office

LOSSIV     Los Angeles Immigration Status Verification Unit

MES        Modernized Enumeration System

OASDI      Old-Age, Survivors and Disability Insurance

POMS       Program Operations Manual System

SAVE       Systematic Alien Verification for Entitlements

SDW        Special Disability Workload

SSA        Social Security Administration

SSI        Supplemental Security Income

SSN        Social Security Number

Forms

G-845      Document Verification Request

SS-5       Application for Social Security Card

I-20       Certificate of Eligibility for Nonimmigrant Student Status
                                                                                      Appendix B
Scope and Methodology
To meet our objective, we:

•   Reviewed pertinent laws, regulations, policies and procedures, as well as prior
    audits and reviews, related to the Social Security Administration’s (SSA) Modernized
    Enumeration System (MES).

•   Reviewed the information related to numberholders from one segment1 of the
    Numident files and extracted those records containing more than one date of birth
    and place of birth.2 We found 1,358 records that met this criterion.

•   We randomly selected 100 records and reviewed the associated Numident to
    determine whether it appeared that more than one distinct individual was on the
    record. If it appeared that more than one person was involved, we attempted to
    determine (1) which individual was the true numberholder, (2) whether the additional
    person(s) had their own Social Security number (SSN), (3) whether earnings were
    cross-posted between Master Earnings File records, and (4) whether SSA benefits
    had been paid on any cross-posted earnings. We then estimated our results based
    on the 20 segments of the Numident files.

•   Reviewed three problem cases from an August 2002 report, Effectiveness of the
    Social Security Administration's Earnings after Death Process (A-03-01-11035),
    where more than one individual was sharing the same SSN. In each case, we
    attempted to determine (1) which individual was the true numberholder, (2) whether
    the additional person(s) had their own SSN, (3) whether earnings were cross-posted
    between Master Earnings File records, and (4) whether SSA benefits had been paid
    on any cross-posted earnings.




1
  A segment represents one-twentieth of the MES. The MES is separated into 20 segments based on the
last 2 digits of the Social Security number. Since these last digits are not specific to a region or period of
issuance, each segment should be representative of the entire file.
2
  In planning our extract, we found that some date of birth fields were blank or contained an “xx” rather
than a number. We also found places of birth field fields were blank at times. We used only the more
complete records for our matching purposes, so the full extent of errors may be larger than what we note
in our report. Our initial methodology also looked for differences in parent names. However, many of the
records were missing this information, since it is optional on the SSN application form.



                                                     B-1
•   We visited a local SSA field office to view the enumeration process and obtained
    their views on previous practices and current concerns.

•   We referred the problem cases in this audit to SSA staff to resolve both
    (1) Numident posting errors and (2) potential benefit payment errors.




                                           B-2
                                                                                  Appendix C
Enumeration Process
In Fiscal Year 2003, the Social Security Administration (SSA) issued over 17.5 million
original and replacement Social Security number (SSN) cards to citizens and
noncitizens. When SSA assigns an SSN or issues a Social Security card, it
independently verifies the authenticity of the United States birth records for applicants
age one and over, immigration records, and other identification documents the applicant
presented to ensure the integrity of the process.1

How SSA Assigns Original SSNs

When an individual applies for an original SSN, he or she must first complete, sign and
submit a Form SS-5, Application for a Social Security Card, to a SSA field office (FO).
SSA requires the applicant to provide acceptable documentary evidence of (1) age,
(2) identity, and (3) U.S. citizenship or lawful alien status. Upon submission, the FO
employee enters applicant information and a description of the evidence presented into
the Modernized Enumeration System (MES).

If, after reviewing the application and supporting evidentiary documentation and
independently verifying the documents with the issuing Agency, the FO employee
believes the documents and information are valid, he or she certifies the application for
overnight validation. Once entered and certified in MES, the SSN application
undergoes automated edits. For example, SSA’s programs compare the applicant's
name and DOB with existing SSN records to ensure the Agency has not previously
assigned a SSN to the individual. If the application passes all of these edits, MES
issues a SSN card.

Evidentiary Documents Submitted

Evidence of Age: To verify a United States citizen’s age, SSA requests a birth
certificate issued by State or local vital statistics agencies. The United States birth
certificate needs to be established before the applicant reached 5 years of age.
Common examples of documents used to establish a noncitizen's age are a foreign
birth certificate, passport, or Department of Homeland Security (DHS) documents.

Evidence of Identity: An identity document submitted as evidence must be recently
issued and provide information so FO personnel can compare its contents with

1
  The process defined in this appendix relates to field office enumeration procedures. SSA assigns SSNs
through other processes as well, including (1) Enumeration at Birth, a program SSA offers through States
whereby the Agency assigns SSNs to newborns as part of the hospital birth registration process, and
(2) Enumeration at Entry, where the Department of Homeland Security and the Department of State
collect enumeration data as part of the immigration process.



                                                  C-1
Form SS-5 data and/or with the applicant's physical appearance. Acceptable identity
documents are drivers’ licenses, passports, school identification cards, marriage or
divorce certificates, or military records. For foreign-born applicants, SSA accepts as
evidence of identity a DHS document submitted as evidence of age only if the applicant
has no other document of probative value for identity and is a refugee, parolee, or
asylum applicant.

Evidence of Work Authorized or Lawful Alien Status: Applicants who allege a
foreign place of birth and/or who are not U.S. citizens must submit evidence supporting
either lawful alien status and/or DHS-granted work authorization. DHS issues
numerous documents that indicate the status and class of aliens. For example, the
Form I-551, Permanent Resident Card, establishes the alien as lawfully admitted for
permanent residence, which is evidence of work authorization.

Verification of Evidentiary Documentation with DHS

SSA has a number of electronic and paper interfaces with DHS to verify evidentiary
documents provided during the application process. The use of a particular DHS
process relates to whether an individual is seeking asylum or other nonimmigrant
category, or is a refugee, permanent resident alien, or parolee. SSA's policies and
procedures require that FO staff verify noncitizen evidentiary documentation through
visual inspection, including use of a black light where appropriate, and with DHS
through online or manual verification. Verification of evidentiary documentation with
DHS is mandated in all noncitizen cases.2

Below are definitions of the primary verification interfaces.

Systematic Alien Verification for Entitlements (SAVE): The SAVE program provides
a method of document verification within an automated environment. The Alien Status
Verification Index (ASVI) database, included as part of SAVE, contains certain
biographic information and current status on over 25 million aliens. Each FO must
verify immigration documents submitted via the ASVI system. With this database, FO
staff can enter an alien's registration number or admission number and determine
whether the information alleged by the applicant is valid. If ASVI cannot verify the
document, a manual verification is required using the additional processes described
next.

Direct DHS Verification: A Form G-845, Document Verification Request, is part of the
manual verification process required by SAVE. This method is used to validate alien
documentation after primary verification, when appropriate, or in those situations when
verification through SAVE is not applicable. Procedures instruct DHS to check other
data sources and respond to SSA within 20 days of receipt.


2
    SSA Policy Instruction EM-02091, August 2, 2002.



                                                   C-2
Executive Office for Immigration Review (EOIR): The Department of Justice's EOIR
provides a status telephone line that SSA's FO personnel can use to determine whether
an applicant for an SSN has been granted asylum or there is an appeal pending on the
particular case. As of April 2001, DHS considers aliens granted asylum to have
permanent employment authorization and requests that SSA treat them as permanent
resident aliens for enumeration purposes.

Los Angeles Immigration Status Verification Unit (LOSISV): A new procedure was
implemented on January 5, 2004, to verify immigration status for exchange visitors and
foreign students when the individual’s data cannot be verified through SAVE. Additional
documents, such as a Form I-20, Certificate of Eligibility for Nonimmigrant Student
Status, completed by the school, and school letters or certification of employment, when
the student is authorized to work, are needed if the person has been in the United
States for at least 10 days and no online SAVE data is available. Verification of the
documents must be requested through the Los Angeles Immigration Status Verification
Unit (LOSISV).

To perform this verification, a fax cover sheet along with a completed Form G-845 and
appropriate documents (such as Form I-20), are either faxed or sent via express mail
service (as appropriate) to LOSISV. This will verify the exchange visitor or foreign
student’s status when the person has been in the United States for at least 10 days and
no online SAVE data is available. Procedures instruct LOSISV to respond to SSA via
Fax within 5 business days from the date sent.




                                          C-3
                                                                                Appendix D
Sampling Methodology and Results

                               Results and Projections
Population1 size in items (One Segment of Numident files)2                                1,358
Population size in items (All 20 Segments of Numident file)                              27,160
Sample size in items                                                                        100
                                      Attribute Projections

Sample cases – Number of Numident Records with More Than
                                                                                               3
One Individual
Projection – Number of Numident Records with More Than One
                                                                                            413
Individual in a Numident Segment
Projection lower limit                                                                       12
Projection upper limit                                                                      100
Estimate – Number of Numident Records with More Than One
Individual in the Numident files (Records in 1 segment x 20                                8203
segments)
We made all projections at the 90-percent confidence level.

Notes: 1. We identify our population as Numident records containing more than one date of birth and
          place of birth.
       2. A segment represents one-twentieth of the Numident files. The Numident files are separated
          into 20 segments based on the last 2 digits of the Social Security number. Since these last
          digits are not specific to a region or period of issuance, each segment should be
          representative of the entire file.
       3. Any differences are due to rounding.
                  Appendix E

Agency Comments
                                       SOCIAL SECURITY
MEMORANDUM                                                                     33175-24-1102


Date:      June 4, 2004                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Review of Social Security Numbers with
           More Than One Owner" (A-03-03-23003)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                       E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "REVIEW OF SOCIAL SECURITY NUMBERS (SSN) WITH MORE THAN
ONE OWNER" (A-03-03-23003)

Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
work to evaluate the integrity of our enumeration process and are pleased with the conclusion
that our current enumeration procedures will minimize the potential of assigning an SSN to more
than one individual. Our response to the specific recommendation is provided below and we are
providing some technical comments to enhance the accuracy of the report.

Recommendation 1

We recommend that the Social Security Administration (SSA) take appropriate action on the
cases with improper payments discussed in this report.

Response

We agree. Action has been taken on the cases identified and we are working to resolve all
earnings posting payment issues.


[In addition to the items listed above, SSA also provided technical comments which
have been addressed, where appropriate, in this report.]




                                              E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
      Walter Bayer, Director, Mid-Atlantic Division, (215) 597-4080

      Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments

In addition to those named above:

      Mildred Soto, Auditor-in-Charge

      Walter Mingo, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-03-23003.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
